2

NO.

flenCrtU

I

3
4
5

FEB25 2019

L OFFICEOLERK
IN THE
SUPREME COURT OF THE UNITED STATES

6
7
8

VERONICA W. OGUNSULA
Petitioner

9

10
Ii
12

VS.

STAFFING NOW, INC.
Respondent

13
14
15

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE DISTRICT OF COLUMBIA

16
17
18
19

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI

20
21
22
23

TO THE CHIEF JUSTICE
JOHN G. ROBERTS, JR.

24
25

FEBRUARY 25, 2019
Veronica W. Ogunsula, Pro
Largo, Mary1
240-486- P.

26
27
28

APPLICATION FOR EXTENSION OF TIME TO FILE - I

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
1 Nona.Ogunsula@gmail.com
2
3
4
5

6

To the Honorable John G. Roberts, Jr., Chief Justice of the United
States Supreme Court and Circuit Justice for the District of Columbia Circuit:
The Petitioner, Veronica W. Ogunsula, a United States citizen and
resident of the State of Maryland, proceeding Pro Se, respectfully moves that the

7
8
9

time within which she may ifie the Petition For Writ of Certiorari to review the
judgment of the U.S. Court of Appeals for the District of Columbia Circuit affirming

10

the U.S. District Court's Judgment be extended. The U.S. Appeals Court's

ii

Judgment was entered on the 10th day of August and the Appellant Petition for

12
13

Rehearing was denied on the 3rd day of December, 2018. A copy of the opinion of the

14

Court of Appeals is attached as well as the Orders denying the Rehearing and

15

Rehearing En Bane. The Case No. 17-7150 is captioned:

16

Veronica Ogunsula, Plaintiff-Appellant

17
18
19

vs.
Staffing Now, Inc., Defendant-Appellee

20
21

The Petitioner requests that the time to file be extended from the 4th day of March,

22
23
24

2019, for a period of 45 days up to and including Thursday, April 18, 2019.
Jurisdiction of this Court is invoked under 28 U.S.C. ยง 1254.

25

26
27
28

APPLICATION FOR EXTENSION OF TIME TO FILE -2

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
Nona.Ogunsula@gmail.com
2

I.

3
4
5

6
7
8
9
10
11
12
13
14
15
16

This case is a federal employment discrimination case which involves
allegations of discrimination based on race, national origin, and age under Title VII
of the 1964 Civil Rights Act and Age Discrimination in Employment Act by the
Respondent, Staffing Now, Inc. The U.S District Court for the District of Columbia
ruled in favor of the respondent's Motion for Summary Judgment which prompted
an appeal to the United States Court of Appeals for the District of Columbia as
referenced above.
Central to the questions being presented to the Supreme Court

I involves the application of the framework related to the Supreme Court's precedeni
setting employment case, McDonnell Douglas vs. Green, as it relates to an
and an industry whose hiring processes, practices and the nature of their workforce,

17
18

based on factual situations, differ from the hiring processes typically found in other

19

human resources department and the permanent staffing industry at large.

20

However, these practices are subject to federal employment discrimination laws.

21
22
23
24
25

26
27
28

Given that these practices are not exempt to non-discrimination laws, discovery in
discrimination cases in this industry, as in other industries, is therefore important
and essential for all parties.
An industry association, American Staffing Association, stated that
temporary staffing industry employs about 3.2 million individuals a year and these
companies hire more than 15 million temporary and contract employees during the

APPLICATION FOR EXTENSION OF TIME TO FILE -3

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive p6334
Largo, Maryland 20774
1 Nona.Ogunsula@gmail.com
2
3

course of the year. This part of the workforce has nearly doubled in the last several

4

years. In comparison, the total U.S. workforce consists approximately a total 128

5

million individuals. A ruling by this Court could affect up to approximately 12% of

6

the U.S. workforce. These employees and individuals deserve a discrimination-free

7

8
9
10
11
12
13

work environment and opportunity to earn an honest living.
The unique practices of the temporary staffing industry/companies
should be taken into account in a review of a case that applies the McDonnell
Douglas framework. The Supreme Court was aware that different factual
in Title VII case could affect how the prima facie proof was applied and stated as

14

much in the case and Footnote 13 endeavoring to provide guidance that supported

15

some flexibility in the application of the framework.

16

This decision was reviewed by a special two-judge panel. A Motion of

17
18
19

Judicial Recusal was submitted involving one of the justices of the panel. That
Motion was denied. This court will be asked to review that decision.

20
21

II.
An extension of time of 45 days with which to file a Petition for Writ of

22
23
24
25

26
27
28

Certiorari is requested for the following reasons:
As previously stated, on December 3rd, the Special Panel of the U.S.
Appeals Court for the District of Columbia filed their decision on the Rehearing. On
December 10th, the Petitioner filed a Request To Stay The Mandate of the U.S.
Appeals Court for the District of Columbia pending a filing of a Petition For A Writ

APPLICATION FOR EXTENSION OF TIME TO FILE -4

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
Nona.OgunsulagmaiLcom
2
3

of Certiorari to the Supreme Court. The respondent file a response of December 19,

4

2018. On December 22, 2018, the Petitioner suffered a catastrophic computer

5

failure of her only and primary working laptop. After several futile attempts to

6

restore the computer during the Holiday season, she purchased parts for a non-

7
8
9
10
11

working spare laptop, however it suffered a similar fate after using the same
connection to the internet she had used for her primary laptop. Petitioner believes
she was the victim of intentional hacker. During this time she had little to no acc
to her case files, research and documents. In mid-January she was able to restore

12
13

her spare PC and some of the files related to this case. In late January she finally

14

received repair parts and new hardware for her primary PC and restore most of the

15

files.

16

(A)

This Application for extension is being requested to allow the

17
18
19

petitioner to complete her Petition as well as seek counsel/advice related to her
Petition.

20
21

(B)

No prejudice will result to any party from the requested

extension.

22
23

(C) The Appellee's Counsel was contacted via email on the morning

24

of February 25, 2019 to ascertain their support or opposition to this Application For

25

An Extension To File. However, no response was received by the time this

26

Application was submitted to the Court.

27
28

APPLICATION FOR EXTENSION OF TIME TO FILE -5

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20774
Nona.Ogunsula@gmail.com
2
3

Wherefore, petitioner respectfully requests that an order be issued

4

extending the time for filing a Petition For Writ of Certiorari up to and including

5

April 18, 2019. Further, the petitioner also requests that this Court extend to her

6

the capability to file her documents electronically. This was a privilege extended to

7
8

the Petitioner in both the District Court and Appeals Court.

9
10

Dated this 25th day of February 2019

11
12

Respectfully

13
14
15

Veronica W. Ogun'u1a, Pro Se

16
17
18
19
20
21
22
23
24
25

26
27
28

APPLICATION FOR EXTENSION OF TIME TO FILE -6

